<html>
<title> - COLLECTIONS STEWARDSHIP AT THE SMITHSONIAN</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
               COLLECTIONS STEWARDSHIP AT THE SMITHSONIAN 

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                 Held in Washington, DC, July 17, 2013

                               __________

      Printed for the use of the Committee on House Administration

                       Available on the Internet
                             www.fdsys.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

82-544 PDF                       WASHINGTON : 2013 
----------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
        DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                        COMMITTEE ON HOUSE ADMINISTRATION

                     CANDICE S. MILLER, Michigan, Chairman

GREGG HARPER, Mississippi        ROBERT A. BRADY, Pennsylvania, Ranking 
PHIL GINGREY, M.D., Georgia        Minority Member
AARON SCHOCK, Illinois           ZOE LOFGREN, California              
TODD ROKITA, Indiana             JUAN VARGAS, California              
RICHARD B. NUGENT, Florida

                           Professional Staff

                       Kelly Craven, Staff Director 
                  Kyle Anderson, Minority Staff Director 



               COLLECTIONS STEWARDSHIP AT THE SMITHSONIAN


                        WEDNESDAY, JULY 17, 2013

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:28 a.m., in Room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
(chairman of the committee) presiding.
    Present: Representatives Miller, Brady and Vargas.
    Staff Present: Kelly Craven, Staff Director; Peter 
Schalestock, Deputy General Counsel; Yael Barash, Legislative 
Clerk; Salley Wood, Communications Director and Deputy Staff 
Director; Bob Sensenbrenner, Senior Counsel; Mary Sue Englund, 
Director of Administration; Kyle Anderson, Minority Staff 
Director; Matt Pinkus, Minority Senior Policy Analyst; Matt 
Defreitas, Minority Professional Staff; Khalil Abboud, Minority 
Elections Staff; Thomas Hicks, Minority Elections Counsel; Mike 
Harrison, Minority Professional Staff; Greg Abbott, Minority 
Professional Staff; and Eddie Flaherty, Minority Professional 
Staff.
    The Chairman. I am going to call to order the Committee on 
House Administration's hearing regarding Collection Stewardship 
at the Smithsonian Institution. In the hearing record, first of 
all, for members, will remain open for 5 legislative days so 
members might submit any materials they wish to be included 
therein.
    Today we are holding a hearing on collection stewardship at 
the Smithsonian. The Smithsonian's vast collection, with more 
than 130 million items, which I think is an extraordinary 
number, holds so many objects of great significance to our 
Nation's scientific efforts as well as priceless objects of 
immense historical and cultural value.
    However, given the size and the scope and diversity of the 
collection, from insect specimens to artwork to live animals 
over at the zoo, it has proven to be a significant challenge to 
manage, and a challenge that I certainly commend the 
Smithsonian for taking on with such great vigor and 
determination and commitment.
    The Smithsonian has not testified actually before this 
committee since 2009. And so we decided to invite the 
Smithsonian certainly to fulfill our duty of oversight, of the 
oversight committee. And I think it is not often that you find 
bipartisan, bicameral agreement in Washington these days, but 
the fact that everyone loves the Smithsonian is something that 
we can all agree on. It certainly is truly one of the treasures 
of our Nation's Capital, of our Nation, of the world, really. 
And I would hope that the Smithsonian takes this hearing as an 
opportunity not only to answer important questions about the 
collections, stewardship, and the progress that they have made 
over recent years, which has been remarkable, I think, but also 
to spread the word about the good work that the Smithsonian 
Institution does each and every day.
    Since its establishment in 1846, the Smithsonian has 
provided America with free access--free access--to a treasure 
trove of American history. And at its core, the Smithsonian's 
mission, the increase and diffusion of knowledge, depends on 
its collections. Without its collections, the Smithsonian 
certainly cannot accomplish much of its scientific research nor 
can it help other agencies--the United States, international, 
accomplish theirs. Without its collection, the millions of 
tourists who visit Washington would not be able to see the 
famous ruby slippers, the Hope Diamond, or the original Star 
Spangled Banner. And, thankfully, since its safe return, they 
can also visit Rusty, the red panda, as well.
    Collections are fundamental to the Smithsonian's mission, 
and its strategic plan recognizes that as well as the 
responsibility, as they say, to preserve them for future 
generations. In 2005, the Smithsonian's Office of Policy and 
Analysis recognized the Smithsonian had challenges in 
maintaining its collection. Its report, ``Concern At the 
Core,'' detailed how the Smithsonian had systematic weaknesses 
in its collections care practices, and the report detailed how 
the Smithsonian had fallen behind on its collections care and 
expressed concern about the Smithsonian's ability to track and 
maintain its collection. Subsequent IG audits of the 
Smithsonian museums, such as the National Air and Space Museum, 
the National Museum of American History, and the National 
Museum of Natural History, from 2005 to 2011, further outlined 
issues related to preservation, to inventory record, to storage 
conditions and security of collections.
    In recognizing these challenges, the Smithsonian, to its 
great credit, realigned efforts to improve collection care 
practices. In 2010, in its 2010 to 2015 strategic plan, the 
Smithsonian specifically recognized strengthening collections 
as one of the Smithsonian's top priorities. In 2011, the 
Smithsonian appointed Mr. Scott--Dr. Scott Miller, who joins us 
today, the Deputy Undersecretary for Collections and 
Interdisciplinary Support. The Smithsonian then had a point 
person in addressing the care of its varying collections, which 
ranges, I say, from small insects mounted on boards to large 
historical and industrial and military equipment. The 
Smithsonian has also embarked on three different initiatives to 
improve collections care; an institution-wide collections 
condition assessment, allowing the Smithsonian to find out the 
state of its collection; increased digitization of its 
collections; and implementing collections space planning. And 
while these are the overreaching plan at the Smithsonian, each 
of the Smithsonian's museums have also undertaken their own 
initiatives to improve collections care.
    However, the work there is not done. In its ``Top 
Management Challenges for 2012,'' the Smithsonian Inspector 
General identified collections stewardship as one of the most 
pressing issues for the Smithsonian's management. And as 
chairman of the Committee on House Admin, I certainly feel 
responsibility for ensuring that the Smithsonian, a rare 
institution that everyone in Washington values, keeps its 
collections available for future generations. And that is 
really one of the purposes of our hearings today.
    And I certainly want to thank the witnesses for attending 
today, and I will formally introduce you in just a moment.
    But at this time, I would like to recognize my colleague, 
Mr. Brady, our ranking member, for his opening statement.
    Mr. Brady. Thank you, Madam Chairman.
    Madam Chairman, thank you for holding this hearing. As 
always, I am happy to work with you on this issue, and I expect 
we will get into other important issues as well. And I would 
like unanimous consent to be able to submit my opening remarks 
for the record because they mirror yours, rather than be 
redundant. We do have a fondness for the Smithsonian. We do 
know that you do some extraordinary things. You are a wealth of 
information and artifacts and memorabilia, and the whole 
country uses it and uses it well. So, with that, I would just 
like to submit these for the record and look forward to hearing 
from our witnesses.
    [The statement of Mr. Brady follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Very well.
    Without objection, Mr. Brady's opening statement submitted 
for the record.
    I would like to now introduce our witnesses. Before his 
appointment as the 12th Secretary of the Smithsonian in July 
2008, Secretary Wayne Clough was President of the Georgia 
Institute of Technology for 14 years, received his bachelor's 
and master's degrees in civil engineering from Georgia Tech in 
1964 and in 1965, and then received a doctorate in 1969 in 
civil engineering from the University of California, Berkeley.
    Secretary Clough was a member of the faculty at Duke 
University, Stanford University, and Virginia Tech. And as 
secretary, he is responsible for operating the world's largest 
museum and research complex, with 19 museums, the National Zoo, 
and numerous research centers. He oversees an annual budget of 
$1 billion, with about 6,000 employees and an equal number of 
volunteers. He spearheaded the development and successful 
execution of a comprehensive strategic plan for the Smithsonian 
and has overseen the opening of major permanent exhibitions, 
including the Star Spangled Banner at the National Museum of 
American History, the Hall of Human Origins at the National 
Museum of Natural History, the new wing at the National Air and 
Space Museum's Udvar-Hazy Center, as well as the Asia Trails at 
the National Zoo.
    Our next witness would be Dr. Scott Miller, who is the 
Deputy for Under Secretary of Collections and Interdisciplinary 
Support, responsible for central planning and development of 
the Smithsonian's vast collections of 137 million objects. Dr. 
Miller received a bachelor's degree from the University of 
California and a doctorate degree in biology from Harvard. He 
previously served as Deputy Under Secretary for Science, 
helping to oversee the Smithsonian's science museums and 
research facilities and as well was an Associate Director for 
Science at the National Zoo from 2004 to 2006.
    And before coming to the Smithsonian in 2000, Dr. Miller 
designed and implemented an International Biodiversity and 
Conservation Program for the International Center of Insect 
Physiology and Ecology in Kenya.
    Scott Dahl is the Inspector General for the Smithsonian 
Institution. He graduated in 1988 from the University of Texas 
Law School, worked at the Washington law firm of Arnold & 
Porter from 1989 to 1992. He previously served as Deputy IG at 
the U.S. Department of Commerce, Deputy IG for the Office of 
Director of National Intelligence, and senior counsel for the 
IG at the Department of Justice. And for the past 20 years, Mr. 
Dahl has been an adjunct professor at Georgetown University Law 
Center, teaching classes on professional responsibility and 
public corruption. The Office of the IG in the Smithsonian 
Institution reports directly to the Board of Regents and 
Congress as well. He was appointed by the Board of Regents. His 
office conducts audits and investigations related to 
Smithsonian programs and operations, promotes efficiency and 
effectiveness within the institution, prevents and detects 
cases of fraud, waste, and abuse, and makes recommendations 
regarding existing policy and regulations at the Smithsonian as 
well. And, of course, keeps Congress informed of his audits and 
investigations.

  STATEMENTS OF SECRETARY G. WAYNE CLOUGH, PH.D., SECRETARY, 
  SMITHSONIAN INSTITUTION; SCOTT MILLER, PH.D., DEPUTY UNDER 
   SECRETARY FOR COLLECTIONS AND INTERDISCIPLINARY SUPPORT, 
  SMITHSONIAN INSTITUTION; SCOTT S. DAHL, INSPECTOR GENERAL, 
                    SMITHSONIAN INSTITUTION

    The Chairman. So I certainly want to thank all of the 
witnesses for being here. We had heard that last year alone, 
there were over 30 million visitors to the Smithsonian. Again, 
just an incredible, sort of a difficult number to even get your 
mind around. But it is a wonderful, wonderful, as I say, 
national treasure. And we look forward to your testimony today. 
And I would--the chair now recognizes Secretary Clough.

         STATEMENT OF SECRETARY G. WAYNE CLOUGH, PH.D.

    Mr. Clough. Thank you, Madam Chair, and members of the 
committee for this opportunity to testify. The Smithsonian 
appreciates the support of the administration, Congress, and 
the American People, especially regarding collections 
stewardship.
    Our collections reflect our broad mission, and include 
objects from history, art, culture, and science. They represent 
our collective memory of who we are as a people as well as our 
knowledge of the natural world and our universe. We take our 
role as stewards of the Nation's collection seriously, and I am 
here today to assure the American people that their collections 
are safe.
    We do have challenges that are complicated by the size and 
complexity of our collection, the scope of the work needed for 
some of our older facilities that house collections, and some 
uncertainties about the Federal budget. We are stewards, as you 
mentioned, of 137 million objects and treasures, including 
2,000 live animals; 127 million of the collections are indeed 
scientific specimens. In addition, there are more than 163,000 
cubic feet of archives, including paper records, images, audio-
visual and digital media, and 1.8 million library volumes, 
including rare books. We have a giant squid, the desk upon 
which Jefferson wrote the Declaration of Independence, Harriet 
Tubman's shawl, the jacket of labor leader Cesar Chavez, the 
Congressional Gold Medals awarded to the Japanese-American 
Veterans of World War II, the Wright flyer, Amelia Earhart's 
plane, and the Space Shuttle Discovery. We use them all to 
inspire visitors, spark discovery, and create new knowledge.
    And guided by our new strategic plan that you referred to, 
we are focusing on our investments, measuring everything we do 
and striving to continuously improve. And this applies to both 
collections as well as our operations. There are great 
opportunities ahead. But as I recently told Congress, 
sequestration will affect the funding for the basics, such as 
maintenance and collection care, and funding for capital that 
is needed to address issues with older facilities.
    Our 2010 strategic plan called for us to renew our focus on 
collections care, and this was reinforced by the inspector 
general's report in 2011. Three years ago, I elevated the 
responsibility for collections by creating a new position, 
deputy under secretary for collections and interdisciplinary 
support, that provides an integrated view for the institution. 
We appointed the highly respected scientist with long 
experience in the field, Dr. Scott Miller, who is here today. 
He will discuss in detail what we consider our three pillars of 
our policy; pan-institutional collections assessment and 
planning, focus on digitization to improve collections 
preservation, management, information content, and lengthening 
their lifespans and collection space planning.
    Let me offer a few highlights. Our cumulative investment in 
collections from fiscal years 2006 to 2012 includes $462 
million for collections management and $390 million in major 
facilities capital projects directly affecting collections 
care. We created new state of the art collections care 
facilities as follows: We opened a new collection center at the 
Hazy Center of the National Air and Space Museum at Dulles. We 
added a new collection support center in Landover, Maryland. We 
built Pod 5 at the Museum Support Center, also in Maryland, for 
scientific collections, and we renovated Pod 3 at that same 
facility for three art museums, natural history collections, 
and cryo, our frozen collection. We renovated an offsite 
storage facility for our New York-based Cooper-Hewitt National 
Design Museum, and we added new greenhouses for our 
horticultural collections. We have supported research into best 
practices at our Museum Conservation Institute, which is 
located in Suitland, Maryland, and recently hosted the National 
Summit on Sustainable Preservation Environment Strategies.
    To reduce duplications over the past decade, we have 
deaccessioned numerous items, including stamps, aircraft, and 
scientific specimens. We also work collaboratively with four 
Federal agencies that base 100 people in our natural history 
collections to fulfill their agency missions. And, through our 
Museum of Natural History, we provide technical support for the 
Federal Aviation Administration and the Department of Defense 
on aircraft bird strikes using our collections.
    It is my honor to lead a dedicated staff of 6,400 employees 
plus 6,200 volunteers, all passionate about the Smithsonian and 
serving the American people. With the help of our Board of 
Regents, which includes six members of Congress, the chief 
justice, and the vice president, we are seeking to create a 
more responsive and relevant Smithsonian. And as noted, last 
year, we opened 100 exhibitions and hosted more than 30 million 
visitors, the largest number in a decade. We are expanding our 
reach through digital access, with more than 100 million unique 
visitors to our Web sites and more than 2,000 lesson plans that 
meet State standards which are delivered to all 50 States.
    A scholar in American history once said the Smithsonian is 
in the ``forever business,'' meaning our collections have to be 
preserved for all future generations. Recently, we created a 
new state-of-the-art home for the grand Star Spangled Banner at 
our American History Museum. As the flag was being moved into 
its new home, all the construction workers on the site stopped, 
stood, took off their hardhats, and, in many cases, with tears 
in their eyes, held their hands to their hearts as the flags 
passed. That is the power of inspiring objects. With the help 
of Congress and American people, we will preserve, protect, and 
present them for future generations to come. Thank you.
    The Chairman. Thank you, Secretary.
    [The statement of Mr. Clough follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. That is a very great story there about the 
Star Spangled Banner. That speaks to what you are about there, 
certainly.
    The chair now recognizes Dr. Miller for his testimony.
    And we have a 5-minute light on. But if you need to go over 
a little bit, we are--just take your time and go through it. 
Thank you.

                STATEMENT OF SCOTT MILLER, PH.D.

    Mr. Miller. Thank you for this opportunity to testify.
    As Secretary Clough described, I have oversight 
responsibilities for the collections at the Smithsonian, and it 
is a great privilege to do so. But as an entomologist with 30 
years of experience doing collections-based research, I also 
have a very personal appreciation for the value of the 
collections and how they can be used. I, too, want to assure 
the American people that their treasures are safe.
    Our holdings are a global resource accessed by millions of 
visitors and researchers each year in subjects from aeronautics 
to zoology. With Federal support, we are working diligently to 
ensure that our collections in art, science, history, and 
culture are there for generations to come to educate, to 
inspire, and to enlighten.
    Collection stewardship is among the Smithsonian's highest 
priorities and, in some cases, our greatest challenge. The 
volume, characteristics, and age of Smithsonian collections 
as--well as the variety of standards that apply to their care--
make their management, preservation, and digitization as 
complex as the collections themselves. Yet we have been making 
great progress in many areas.
    Specifically, we have satisfied all but a few of the 
inspector general recommendations, and those will be addressed 
by the end of the year. As the secretary noted, we have focused 
on three initiatives for a holistic view of the collection. 
Specifically, those are the assessment of collections care 
conditions, strategic focus on the digital Smithsonian, and 
collection space planning. These three initiatives encompass 
the concerns noted in the IG reports, specifically, inventory 
control, security standards, and preservation. The creation of 
my office itself has raised the profile of collections issues 
within the Smithsonian and, in some cases, served as a catalyst 
for our recent progress.
    Most people think of the Smithsonian as the iconic museums 
on the National Mall in front of the Capitol. We are a 
destination, but we are also so much more, with collections 
prominently at the heart of the Smithsonian. In fact, most of 
our scientific collections are acquired and maintained solely 
for the purpose of research. They enable experts to address 
significant challenges facing society, such as the spread of 
invasive species. Just one example is the emerald ash borer, a 
beetle currently ravaging ash trees from Maryland to Michigan.
    In addition to our own experts, last year we had more than 
45,000 research visitor days to the collections. But we also 
have some research visitors who simply stay and call the 
Smithsonian home. Four Federal agencies base 100 people in our 
natural history collections to fulfill their agency missions 
and to serve the American people. We work together in 
interagency partnership with them. In the last few years, we 
have begun serious industry-leading assessments of collections. 
We are using those data to drive pan-institutional 
prioritization of resources. In that process, we look at many 
factors, including the importance to the Smithsonian's mission 
and strategic plan, the urgency of preservation needs and the 
current or potential use for research, education, or 
exhibition. This big picture has capitalized on economies of 
scale and enabled comprehensive care improvements that benefit 
the greatest number of items in an efficient, practical, and 
cost-efficient manner.
    We also have initiatives that involve collaboration across 
different collecting units for similar kinds of materials, such 
as improving the management and accessibility of frozen 
biological materials, developing and implementing best 
practices in the preservation of digital art and time-based 
media, and developing an inter-disciplinary approach to 
emergency preparedness and response for the collections.
    We are stewards of the Smithsonian collections but we 
affect collections globally. We set industry standards for 
collections care. We also continuously evaluate those standards 
for their utility and viability, often revising standards over 
time as our scientific research on collections conservation 
provides new information and guidance. We share that knowledge 
in multiple ways. For example, I have the privilege of being 
the co-chair of the Interagency Working Group on Scientific 
Collections, which is enhancing collections policy across 
Federal collections in response to the America COMPETES Act.
    In some cases, final assessment data from those initiatives 
that I mentioned are still pending, but we do know that we will 
need more resources to address insufficiencies. We know that 
targeted funding helps us to remediate conditions and 
deficiencies that have existed for many years, and we are 
grateful to Congress for that support, yet sequestration is an 
issue for us at the Smithsonian. We have incredible challenges 
to address at the same time that our budget is stretched thin, 
and this can adversely impact the recent progress that we have 
made.
    We have shown what can be accomplished with targeted 
investment. We will continue to seek alternative funding 
models. But private donors often see collections-related 
activity as primarily a Federal responsibility. Thus, we 
continue to need the support and financial help of Congress to 
continue to preserve America's treasures.
    Thank you.
    The Chairman. Thank you very much, Dr. Miller.
    [The statement of Mr. Miller follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. The chair now recognizes Mr. Dahl for his 
testimony.

                   STATEMENT OF SCOTT S. DAHL

    Mr. Dahl. Good morning. Thank you for the opportunity to 
testify about the Smithsonian's collections care challenges. 
All of us here agree that collections care is critical to the 
Smithsonian's mission and that management plays an essential 
role.
    The Office of the Inspector General also serves an 
important oversight function in collections stewardship. Over 
the last several years, we have conducted collections care--
collections management audits on three of the largest museums 
on the National Mall that combined house nearly 99 percent of 
the Smithsonian's collections.
    In our audit of the American History Museum, we found that 
many collections were stored in substandard conditions and that 
storage equipment and buildings were deteriorating and 
contained hazardous materials. Particularly troubling were the 
storage conditions at the Garber facility in Suitland, 
Maryland. Objects stored there were at significant risk of 
damage.
    We also found that required cyclical inventories were not 
being done, and inventory records were often incomplete and 
inaccurate, leaving conditions or collections objects 
vulnerable to loss and theft. In fact, during our sample 
inventories of collections, the museum could not locate 10 
percent of the objects in our sample, including some items of 
great value and significance.
    Management concurred with our recommendations and has 
completed almost all of the recommendations that we have made. 
We have evaluated management's submissions to us to determine 
whether they adequately address our recommendations.
    In reviewing our prior collections audits, we found that 
many of the same issues occurred across several museums. Rather 
than conducting an audit of another museum, we decided to 
approach our oversight of collections care from a pan-
institutional perspective. We also highlighted these systemic 
patterns of collections care challenges in our 2012 report, 
which the Chairman mentioned, the ``Top Management 
Challenges,'' which identifies the most critical problems that 
the Smithsonian faces. In that report, we once again emphasized 
the need for the Smithsonian to address the collections care 
challenges pan-institutionally. Management generally agrees 
with our pan-institutional emphasis, and Scott Miller and his 
office have moved forward on the three strategic initiatives 
for collections stewardship that Dr. Miller and Dr. Clough 
referred to earlier.
    The three strategic initiatives partially overlap with the 
collections care areas that we identified in our top management 
challenges. We are assessing the impact that these initiatives 
are having on collections care in our recently announced 
review. In addition, we have been evaluating plans that 
management has submitted in response to our recommendations. 
While plans are a very important first step, they need to be 
implemented in order to have an impact on collections care 
problems. The implementation of many of these plans is at risk 
because implementation is largely contingent on increased 
funding levels. In fact, management has cited resource 
constraints as an impediment to addressing collections care 
problems. We acknowledge the decline in funding for collections 
care, and we expect that trend will continue. Smithsonian's own 
policy shop advised management in 2005 to seek other avenues 
for additional funding for collections care, including from 
private resources. Dr. Miller mentioned that they are exploring 
those alternatives now.
    Another impediment to full implementation is the 
Smithsonian's decentralized approach to collections management. 
The collecting units are still largely free to set their own 
standards and allocate resources for collections care as they 
see fit. Scott Miller does not have the authority to make most 
of those resource allocation decisions. Going forward, we will 
continue to monitor the Smithsonian's implementation of our 
previous audit recommendations, and we have initiated a review 
of these three pan-institutional collections care initiatives.
    We remain concerned about the substandard and hazardous 
conditions at Garber and will continue to monitor progress 
there. By strengthening the Smithsonian's cross-unit 
collaboration and implementing a more risk-based, prioritized 
plan throughout the entire institution, we believe collections 
care will be improved.
    That concludes my statement. I am happy to respond to any 
questions. Thank you.
    The Chairman. Thank you very much.
    [The statement of Mr. Dahl follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. And we thank all the gentlemen for their 
testimony. Very interesting, I think.
    And as we sort of focus here on collections care, all of 
you mentioned the same thing, really, or are certainly 
cognizant of the fact that the decline in funding. And no end 
in sight, let's face it, for anybody really within the Federal 
structure, as we are about to be voting in the fall on a--
raising the debt ceiling, et cetera. We have enormous fiscal 
constraints in our Nation for all kinds of things.
    But as we think about some of the priority collections in 
the storage, et cetera, I was trying to listen closely, the 
secretary was mentioning--I started making some notes and then 
stopped about some--Udvar-Hazy and Landover, Maryland, New 
York, some of the things you have done at the greenhouses, et 
cetera. I guess my question would be, as far as the current 
capacity for storage for all--for your entire collection, and 
is there anything in imminent threat? Mr. Dahl mentioned 
Garber. I am not sure where Garber is. I guess that would be 
part of my question. Where is Garber, and what is actually in 
it? You raised some concerns about that particular storage 
facility. But is there anything that is really an imminent 
threat that needs to be addressed? And also, I guess, it is 
sort of like the short term, but long term, as you continue to 
collect with your collections, are you collecting things that 
you have a concern that you might not be able to store or have 
the capacity for? And I am sure that goes into your strategic 
plan as well. And maybe you could enlighten us a bit on that 
also.
    Mr. Clough. Thanks. And I will try to give an explanation 
of that. Garber is part of a facility in Suitland, Maryland, 
which now has a high-end, sophisticated center for our 
collections. But initially, it was more of a warehouse. And so 
the early stage construction there was deemed to be temporary. 
And so a lot of metal buildings were put up with relatively 
rudimentary ability to control environment and things of that 
sort. And as you imagine with the old buildings, there were 
some asbestos problems and other things there.
    The intention in the long run, as I understand it, was to 
get rid of those buildings as new facilities were built. I 
referred to something called the Pod 5 and Pod 3. There is a 
set of buildings that actually has five pods now, which are 
very sophisticated collections buildings, state of the art, 
absolutely the best in the world. In addition, we have 
collections there for the American Indian Museum in their 
particular center, which is also a state of the art facility.
    Over time, the Smithsonian found it was not able to get rid 
of the older buildings as the collections grew because it 
needed the space. So, with time, as we build these new 
facilities, we are trying to move things out of those 
buildings, which, in some cases, you would prefer not to use.
    Now, we did have a building that collapsed--you mentioned a 
concern--in the large snow event that we had a few years ago. 
And as a result of that, we did a structural reevaluation of 
each and every one of those buildings. And we have addressed 
most of the problems that were identified as most critical. We 
still have three buildings that we have concerns about that we 
would like to get out of. But gradually, as we built the 
Landover facility and Udvar-Hazy facility, we have moved 
collections out into those new facilities. And that is been a 
big improvement for us. And we got rid of the building, 
obviously, that collapsed. So that is probably the area that we 
have the greatest concerns for. We would like to get out of 
that. And it will just take some time to build new facilities 
and take the collection out of those areas. I think otherwise 
we feel positive about where we are. American History also 
remains a bit of a challenge because it has a very old 
collection. It is a building that was built in the 1960s. It 
needs renovation. That is a process that will take place in 
stages. We don't want to shut the whole museum down, so we do 
it in stages. So American History, as was identified by the 
inspector general correctly, is an area where we have concerns. 
But other than that, we have done, I think, a good job of 
bringing the facilities up and addressing some of the most 
serious problems.
    The Chairman. So that is sort of the short item. As you 
look long term perhaps I would--first of all, Mr. Dahl, whether 
or not you agree with that assessment and, Mr. Miller, what you 
see long term. Some of the newer collections that you are going 
to be--I mean, the T. Rex, for instance, I--various things that 
you are collecting and how you are going to be storing those, 
et cetera.
    Mr. Dahl. Chairman Miller, we--we remain concerned about 
the conditions at Garber for the reasons that the Secretary has 
mentioned. Some of those buildings are in decline, and the 
collections need to be moved out of there. They are making--we 
have been monitoring this progress, as the Secretary noted, 
through structural supports and moving some of the more valued 
items to other storage centers. But we, as the Secretary, 
remain concerned about the conditions there.
    The Chairman. Mr. Miller.
    Mr. Miller. Let me first just add to the secretary's 
remarks about the three buildings of specific concern at 
Garber, we have the plans now in place for the replacement of 
those buildings and the decontamination of those collections, 
and that new construction will start in the beginning of the 
next fiscal year.
    Regarding the longer-term issues, that really goes to the 
space planning study that we have done where we have looked 
very carefully at every space across the Smithsonian that 
relates to collections uses, and that's 2.1 million square feet 
of space. And we have identified which of those need 
replacement or renovation. We have also identified what we need 
to deal with incoming collections, according to our 
projections. We have done three pilot studies looking at how we 
can better use space in the downtown museum buildings, how 
might we better use the Suitland facility that the secretary 
mentioned, and also, how might we build a facility for large 
objects at the Dulles campus where the Udvar-Hazy Center is. 
And we are proceeding with that planning. It is clear that in 
the long term, to deal with the challenges at the American 
History Museum, we need new offsite storage. There is just no 
expansion space in that building to allow us to decompress 
those collections and deal with that in place.
    Mr. Clough. I had a quick comment.
    The Chairman. Certainly.
    Mr. Clough. One of the things that we are working hard on 
is looking at ways to use a public-private partnership aspect 
of the Smithsonian to best effect to address these problems. 
The Udvar-Hazy Center was built entirely with private money, 
and it has a marvelous archival system in it. In some cases, we 
are able to get donor support for digitizing collections and 
particularly for what I would call enthusiast areas. The 
Archives of American Art, for example, has a large following of 
folks. And we were able to get a foundation to give us $6 
million to undertake a serious effort at digitizing their 
collections. That gives the public more access to them, that 
gives scholars more access to them. In addition, it means less 
movement of collections, less damage to collections over time. 
It protects the collections, and better inventory control when 
we can undertake these activities.
    And, in addition, we are looking at simply more 
productivity. The more we can use digital assets and move 
digital assets around, the less we need an actual, physical 
person to move these things around. And so we are tying to 
increase our productivity as well as look at donor support and 
other ways in which we can address these challenges.
    The Chairman. I think I will just follow up on that. You 
are talking about digitizing, digitizing all of your various 
collections, et cetera. I am not a great--I am not great on 
technology, although, believe it or not, our committee actually 
has everything on our iPads here for this. It is the first time 
we have done this at our hearing. I have all my opening 
statements and various things on there. So we are trying. But 
that is an effort, right?
    But, you know, when we think about the fantastic collection 
that you have, and, as I say, such a national treasure and how 
we can allow every American to access the fantastic treasure 
trove of information and collections that you have at the 
Smithsonian, I am not really clear on how the digitization is 
working. Actually, I have been trying to go on the Internet to 
find out exactly what I can see there in an asymmetrical 3-D 
type of way to your collections, et cetera. And I think when we 
think about a major component of revitalizing education--and, 
of course, today's kids are used to accessing almost everything 
electronically. How is that--how can that help a school 
district in my district, for instance? How could I go a teacher 
or principal and say, look, do you even realize what the 
Smithsonian has available for your students? And how they could 
access all of this.
    Mr. Clough. I think there are really three aspects of that. 
One part of it is the physical digitization of an artifact. And 
that is a physical act that has to take place, which is time 
consuming and labor consuming. We are actually looking at 
robotics as a way to find a more automatic way, because of the 
scale of our collection. But that is a challenge for us because 
of the size of the collection. So that is one aspect of it.
    Now, we are working hard to find other ways to do this. It 
is not just a question of incidentally making an image of an 
object. We would like today to make a 3-dimensional image of 
the object that you can put on your pad or tablet, and rotate. 
A student can do that and understand it. But the second part of 
that is what we call the metadata, and that is describing what 
the object is. It doesn't do you any good just to see an image 
if you don't know what the object is. So our objective really 
is to put metadata against this object so you know what it is, 
where it came from, how it was made, all those kind of things, 
and what date and so forth that it was made.
    So we are looking at using volunteers, digital volunteers, 
to help us with that. The National Postal Museum has done a 
great job of vetting about 160 people who are philatelists, who 
love stamps--and many Members of Congress, incidentally, love 
stamps, it turns out. They can actually help us add metadata, 
which we would vet, but they would do some of the work for us, 
if you will, in terms of that. So we are looking at ways to get 
volunteers--volunteers want to help the Smithsonian. And we 
have 6,200 physical volunteers; why not have digital volunteers 
to help us? So we are creating a volunteer page where we will 
offer tasks to people if they would like to help us. If you are 
into coins or you are into First Ladies' gowns, we can let you 
help us in that regard.
    The second part is then access. Once you digitize 
something, how can we make it easy for you to access it? And so 
we are working on our search engines, which, frankly, aren't 
where they need to be. We were very fortunate to compete for 
President's Innovation Fellows. There are 40 or so of those 
that were put up for bids this year. We competed and won three 
of them. And so we have three folks working with us who are 
from industry who are uniquely talented in this area. One is a 
specialist in search engines. We are going to work with this 
particular person to help lift our search engines to another 
level to make it easier for people to use these.
    And then, finally, you need to put these things into 
contexts that are useful for teachers and for students, 
enthusiasts, for that matter. That means you go to lesson 
plans. We know that teachers want adaptable lesson plans. We 
need to give them raw material; they will create the lesson 
plan. But also focus it on State standards. We are working hard 
with the Department of Education on trying to make sure all of 
our aspects meet State standards. We have a group of about 500 
teachers who are focus groups for us to help us as we are doing 
this work and to create things that they really want.
    Another challenge is to make sure we are putting something 
up that people want to see. Because in our vast collections, 
not everybody wants to see everything. We are trying to get 
smarter about what people want from us so that we can use our 
resources, which will be stretched, no matter what, in a more 
effective way.
    The Chairman. Very good.
    And before I turn to my ranking member, I think I am going 
to ask you to assist our staff, actually, on something that we 
have been working on, a piece of legislation that passed this 
committee and passed the full House. Congress for years has had 
this artistic discovery with the art you see in the tunnel when 
you are going in--all of our different districts have a 
competition for art. But this--we are putting together our 
staff here and House of professional staff is putting together 
a new competition for STEM for an app for the kids. Right? They 
got an app for this, for the STEM kinds of things. And we think 
that that could be a fantastic competition. And kids need to be 
recognized, not just for their expertise in sports but in the 
sciences and engineering, et cetera, et cetera. And we may be 
calling you to assist us a bit as we put together the 
parameters for that type of competition. And the Smithsonian 
would be a great----
    Mr. Clough. One other small aspect about this is digital 
badging, which has become very important. Once the teacher or 
the student has access to the materials, how do they prove they 
got something from it? So we have a digital badge, sort of like 
the scout badge, that a student can earn when they show that 
they have completed a task and actually finished it to the 
satisfaction of our experts. We have about 120 of these badges 
now. Many are the area of STEM education. It gives a student a 
chance to be certified that they actually did the work.
    The Chairman. Very good.
    Chair recognizes ranking member, gentlemen from 
Pennsylvania.
    Mr. Brady. Thank you, Madam Chairman.
    Mr. Secretary, Smithsonian doesn't charge any entrance 
fees. With the sequestration, would you think that may have any 
change to that?
    Mr. Clough. So far, we have avoided charging admission fees 
to our museums. My philosophy on it has been affected by my 
daily observations of visitors to our museum. The American 
people, as I see it, have helped pay for our buildings. They 
have helped pay for the collections and the maintenance of 
collections. It seems kind of a shame to charge them again to 
see something they own. Really, I always tell people when I 
give talks, you own our collections and you should take 
advantage of them. So that is the philosophy.
    The second thing is if you charge admissions, the challenge 
will be that it costs money to collect those admission fees. 
And so you can't charge a small amount; you have to charge a 
relatively large amount. And, in addition, because we have 
visitors who like to be able to visit multiple museums, then 
you would probably deter their ability to visit the multiple 
museums that they come to see.
    We are a little different than most museums that, and our 
zoo, of course, in that we have a lot of folks who don't have a 
lot of money coming to visit. They don't have enough money to 
buy things in our stores. And they sit outside, and they make 
their own lunches and so forth. And, to me, it is very moving 
to see people be able to really enjoy something that they paid 
for and they own.
    Mr. Brady. I appreciate that, sir.
    For the record, I am against charging for admission.
    So I am in agreement with you.
    The African American Museum, will that make the deadline in 
2015? The opening? African American Museum.
    Mr. Clough. We are still shooting for an opening in 2015. 
Our plan originally was November of 2015. That is sort of tied 
to the end of the Civil War as an anniversary. We have worked 
hard to maintain that schedule and stay on budget. We have had 
some challenges; construction encountered some difficulties at 
the end of last year and early this year. As you know, I am an 
engineer. And the site is on 14th and Constitution. That 
happens to be a location where the Tiber River used to be. So 
the river used to run through that area and actually was used 
to deliver construction materials to the Capitol building. And 
so they had a deep excavation well under the water table into 
some gravelly, open materials. And so they had some water 
problems that actually challenged them. Clark Construction, I 
think, did a great job of recovering from that, but it cost 
some time. We had a little schedule slippage. We still are 
within the contingency that we set for the project. So we still 
hope to open in November of 15. That is still our plan.
    I am sorry.
    Mr. Brady. Thank you.
    One other quick thing. I understand that there will be some 
submissions with the restaurant employees and the McDonald 
workers that they are not getting a living wage. I appreciate 
what you said about people outside making their lunches, and 
you sympathize with them. I wish that you would sympathize with 
the people that are inside making lunches for the people that 
are coming in when you do your contract and make sure that they 
may be able to get--or listen to them, anyway. They have been 
to see me. Told them I would bring the question up. I think 
they may make a little bit less than we even pay on our side of 
the--with our concessions here in the House and the Senate. And 
that is the McDonald workers and the restaurant associations. 
And I think their contract may be coming up in 2015, also, if 
you would take a look at that. And I may have to talk to you a 
little bit further with that if you don't mind.
    Mr. Clough. Sure. We are certainly aware of their concerns. 
And they have presented petitions to us, which we have read 
very carefully and brought to our Regents. Basically, the food 
service workers are employed by our contractors. We were 
encouraged by Congress, and we thought it was a good idea some 
time back to outsource that business, both for our retail 
stores and for food service and for some of our other 
activities. And we follow the standard and local processes. So 
we follow all laws and all policies that are set by local 
government and by the Federal Government in working with those 
contractors, that the contractors have to provide and meet all 
laws and policies of Federal government and the local 
government as far as that is concerned. And so we also try to 
make sure that everybody has avenues for their grievances, that 
they are not denied access to their grievances process. That is 
something we are very concerned about.
    Mr. Brady. I appreciate that. Thank you, Mr. Secretary, Mr. 
Miller, and Mr. Dahl.
    And thank you, Madam Chairman.
    Mr. Clough. Thank you.
    The Chairman. Thank you, gentleman.
    The chair now recognizes the gentleman from California, Mr. 
Vargas.
    Mr. Vargas. Madam Chair, thank you very much for this 
opportunity, and also for this hearing. The ranking member 
also.
    I want to thank the witnesses for being here. I do want to 
ask, the first question, about the collection itself. I have 
had the opportunity to go both to the Hermitage in St. 
Petersburg as well at the Louvre. And one of the things I think 
that hits most of us when we get there is they are not always 
air conditioned. And you wonder about the collection there and 
some of the incredible works of art. Could you comment a little 
bit about that? Because I know we are talking about collections 
here and the maintenance of them. Could you talk a little about 
our own system here?
    Mr. Clough. And I will defer to Dr. Miller because he is a 
bit more of an expert on this than I am. But the collections, 
obviously, require humidity, temperature, and lighting control. 
These are important aspects. Some collections are more 
sensitive to that than others, clearly. But that is part of our 
challenge, for example, in energy conservation in the 
Smithsonian. We are trying to save money everywhere we can, and 
yet this is a challenge for us because you can't shut the 
temperature and air conditioning controls off on weekends or 
when someone is not visiting the collections. And so this is a 
big challenge for us. It is just a continual challenge. 
Collections are a day-in, day-out responsibility; you can never 
let up on collections. Works of art, particularly, are 
sensitive to temperature and humidity and lighting. My office, 
for example, has works of art from a number of our museums, and 
the curators from those museums come by because the Castle 
Building is not well air conditioned or temperature controlled. 
They change paintings out, out of my office, because they don't 
want to leave them there too long. So I know it is something 
they are very sensitive to.
    The Smithsonian has helped set the standards for these, and 
it is something that we are very concerned about, particularly 
in some of the older buildings.
    But Dr. Miller may want to comment on that.
    Mr. Miller. Well, I will just add that we do have one of 
our units, the Museum Conservation Institute, where they really 
have the expertise on the physics and chemistry of degradation 
of materials. And then the corollary of that is, how do you 
slow down those degradation processes? And so they help set the 
standard for temperature and relative humidity in museum 
collections some 30 years ago. And we actually, as I mentioned 
in my remarks, just had a national and in fact international 
summit, where we brought in the best experts, not only 
internally but externally as well, to relook at that question 
of the balance of temperature and relative humidity of 
standards for collections with the specific view of now green 
buildings. How can you balance energy consumption with long-
term stability of physical objects? We will be recommending 
some small changes in that that we hope will help with energy 
conservation in our own buildings and museums around the world.
    Mr. Clough. I might add to that, one of the things we do as 
we see ourselves as a leader, as part of our responsibility, we 
have about 180 museums that are called affiliates. And we share 
collections practices with them. Every year we have an annual 
meeting here, which we just held. And three of those museums, 
for example, are in San Diego. So our objective is, as we learn 
these things, is that we share them, particularly with our 
affiliate museums and others.
    Mr. Vargas. You have to tell me, then, which three museums 
are they in San Diego? Since I am from San Diego.
    Mr. Clough. The Marine Museum; the Museum of Man, which is 
your natural history museum; and your Air and Space Museum.
    Mr. Vargas. Okay.
    Mr. Clough. And we are working also with the development in 
Balboa Park to give advice and consultation. And there is a new 
exhibition coming up in 2015, marking 100 years since you 
celebrated the Panama Canal in 1915. We have been asked to 
share some of our collection objects from the Panama Canal 
days. The Smithsonian, as you may know, was invited during the 
construction of the canal to do the bioassay around the canal, 
because you are going to change the ecosystem there with the 
canal. So, through that effort, we now have the Smithsonian 
Tropical Research Institute, which is the best in the world, 
and it is located in Panama. We have a great relationship with 
the Panamanian government and the Canal Authority. We will be 
loaning objects so they can, in essence, create a way for 
viewers, museum goers, to go to one museum and then go to the 
next museum and go to the next museum and have a continuity. 
And we are excited about that.
    Mr. Vargas. Madam Chair, that is no fair. They are playing 
to the crowd on me on that one because they know how important 
that is. It is hard for me to ask tough questions when they 
talk about San Diego, and especially how excited we are about 
the hundred years of Panama Canal exhibits there.
    But thank you. I do appreciate that. But I do want to 
continue this line of questioning just because, again, we 
collect old furniture, Stickley furniture, that is American 
furniture from Gustav and the brothers. And one of the things 
that is very sensitive, of course, is the changing of both the 
humidity, the heat and light exposure. And so my concern when I 
went to the Hermitage and when I went to the Louvre was to see, 
wow, they really don't, except for where the Mona Lisa is, they 
seem to be quite good about controlling. I think they even have 
an individual control for the painting itself. But other than 
that, there does seem to be a laxness. And certainly at the 
Hermitage, with these incredible works, I went there in the 
winter, unfortunately, and it was surprised at how cold the old 
palace was. So, again, my concern is that these--you know, 
these incredible works that we have will be damaged because of 
this lack of control.
    And the reason I was going to ask that is I--I do see, Mr. 
Secretary, on your testimony, page number 7, the amount of 
money--and if I could just read it to you--``the current budget 
state sequestration especially comes at a particular challenge 
for us at the Smithsonian. Our central collections care funding 
was cut by 60 percent this year because of sequestration.'' 
Now, that is a very significant cut. If you could comment on 
that just a little further. Because that does concern me.
    Mr. Clough. Sure. And that was not something we wanted to 
do, obviously. But the collections care pool is a special pool 
that we created. It was created just before I came. It was 
about a million dollars when I came, we got up to $5 million 
now, thanks to the help of Congress, which has added budget 
lines in that area for us. That is a strategic pool to address 
critical problems. And so when we find that there is a 
particular problem the IG might identify or we would identify, 
we use those funds to rush in and try to address it--so we 
don't want to let a problem fester, if you will. We put in 
roughly each year about $60 million, actually, in the 
collection. So what you are referring to was just the pool. And 
that was a 1-year stoppage or shortcut because we wanted to 
avoid cutting people, because there are about 450 people at the 
Smithsonian who are involved in collections care. And if we cut 
back there, that would be a permanent cut in collections care. 
So our choice was to cut back on the small area of pool funds 
for 1 year while we could think through how we would address 
any additional cuts that we might be facing and absorb them in 
a more logical way permanently. So it has just a short term 
type of thing.
    Mr. Vargas. Thank you very much.
    I know my time has expired, Madam Chair. Thank you very 
much. And really appreciate the work that they do. I think it 
is an incredible museum and one that we are very, very proud 
of.
    Thank you, Madam Chair.
    The Chairman. Thank the gentleman.
    I am going to ask just a couple more questions, since I am 
the chairman, I have a little time, and we can have a second 
round as well.
    But I think I will just follow up on this about the--you 
mentioned you had--I just wrote 450 people in collections care. 
And I thought it was interesting that the IG actually pointed 
out in your ``Concern at the Core,'' you identified some need 
for some additional training, new training. You identified that 
a number of senior personnel, sort of the institutional memory. 
We are all getting older, and it has always about the people. 
No matter what business you are in, it is always about the 
people. Really. And making sure that you have good training and 
good back--background, the farm team that is coming up that has 
the kind of expertise and the passion to be doing this kind of 
a thing in collections care. And I am wondering, apparently you 
have got a lot of senior staff that are going to be retiring 
here sort of in a group, in a clump here in the next several 
years. I am just wondering if the IG or the secretary or Dr. 
Miller have any comment on the--your workforce and how you are 
preparing for that very critical element of your mission.
    Mr. Clough. Well, it has been--it was interesting to me 
when I came to the Smithsonian to try to understand the larger 
trends. The budget situation has been challenging, but the 
people who work at the Smithsonian love it so much, they tend 
not to want to leave. I noted that certainly one thing that was 
going up at the Smithsonian was the average age of the 
employees. That was something that was troubling. And it is not 
only the institutional memory we stand to lose when one person 
has been there for 50 years leaves, but in addition, it is 
bringing in new folks who have new ideas. And, for example, in 
this digitization area, that might take a younger person, if 
you will, or person who is more versed in new technologies to 
do those kind of things. So it is kind of a two-edged sword for 
us. So we address this second challenge working with donors to 
try to give us additional funds base for post docs. And we have 
done a good job. We want to do more. We are trying to raise 
more funds in that area. We have upwards now of 350 or so post 
docs who work at the Smithsonian. These are young people who 
won't stay with us forever, but in many cases, we find those 
are the people who come back when there is a job opening. So it 
is a great chance for them to get to know the Smithsonian and 
then to hopefully want to come back and work with us. And the 
interns are a younger group of people, but they can help as 
well. The institutional memory challenge for us, in part, not 
entirely, can be addressed by digital technologies. Because the 
more we digitize things and the more we put the records and the 
metadata against the objects in digital format, then we have a 
way to save that as best we can. We are getting much, much 
better at collecting oral histories as well, and we are 
creating platforms for that. So if there are things and special 
needs in collections, we can save those and document those as 
well.
    But eventually somebody is going to retire. And in any 
case, we can lose people. We try to stack and stagger things so 
if there is an older person getting ready to leave, we have got 
a younger person in the queue who is picking up behind them to 
continue the work.
    The Chairman. Dr. Miller.
    Mr. Miller. Let me just add to that. Succession planning is 
a challenge because of the uncertainties of the budget as well 
as not having a mandatory retirement age and it being hard to 
plan. But I think our Natural History Museum has done really an 
excellent job of what the secretary described in succession 
planning and encouraging bringing in the next generation of 
people. And I am pleased to say actually that one of the people 
who was instrumental in that process is now the head of 
administration at the American History Museum and is leading 
that kind of a planning process there as part of their 
strategic plan. And they are specifically looking at 
collections management activities, among other things. And then 
one other kind of internal training program that we have 
recently instituted is called the Palmer Leadership Development 
Program. It is an endowed program where we take about 20 of our 
mid-level staff each year and put them through of leadership 
development course. And a number of those people have been in 
the collections area.
    Mr. Clough. I would just add quickly that Congressman Brady 
will be proud to know, Russ Palmer is from Philadelphia. He is 
a great donor to the Smithsonian. He is a big believer in 
training and investment in people. This cross-training allows 
someone from collections care, for example, to work in another 
organization and another part of the Smithsonian and learn how 
that works and then bring that knowledge back into collections 
care. We have now had four classes. We are in our fourth class 
and something I am very excited about. It really will help to 
institutionally build the expertise across the Smithsonian for 
our staff.
    Mr. Dahl. Chairman Miller, we had a recommendation that was 
directed toward the American History Museum on your very point 
on the need to develop a succession plan to address the 
potential staff turnover with the aging staff, and we are still 
awaiting a response from management on this. They have issued a 
questionnaire to the staff at the American History Museum to 
determine what their retirement plans are. We think with this 
recommendation, like many of our others, has pan-institutional 
application, and we would encourage the management to use that 
recommendation to look at other museums that might have similar 
problems. But we are awaiting the response to that 
recommendation.
    The Chairman. Thank you.
    I think this is an area where the IG, sometimes you look at 
the IG recommendations and think, oh gosh, but that really is 
broadening the scope I think perhaps of IG looking at the 
succession plan, et cetera. I think that was an excellent 
point.
    My last question would be, and I have to ask this question 
since I got up reading my Washington Post this morning and saw 
this article on the front page of the Style Section, ``Beyond 
the Bubble,'' which really, as you look at this picture in 
particular, anybody can understand what the impetus was to have 
the bubble because it really was I think a very visionary 
thing. But it didn't turn out as well as everybody had hoped 
initially I guess.
    I am just wondering if you could bring us up to speed on 
what has happened at that particular facility? I know you 
raised quite a bit of money, and where is the money going?
    Mr. Clough. The bubble was an idea from the director at the 
time, Richard Koshalek, and I think when he described it to us 
and we thought about it, we thought it was a very clever idea 
and one that would really add a lot of vitality to that space. 
He was an expert in the use of public space and had a number of 
ideas, that being one of those ideas, so that you add vitality 
to that part of our campus, as we would call it, and also to a 
building, which tends to be kind of intimidating unto itself 
and make more people attracted to this public space around the 
building and use it in a way that you could draw people in, 
particularly from the diplomatic community and so forth, to 
have discussions about international issues.
    I thought it was quite whimsical. I thought it would add a 
lot of vitality. I was in fact one of the early supporters of 
it and made commitments of some of our trust funds in order to 
help the project. We could not put it on the regular Federal 
capital list because it was a temporary structure.
    It was new and a new concept, because there are a lot of 
inflatable structures out there. But this one would go up and 
come down and go up and come down in a year, and it would have 
to go up and come down twice because it did not have air 
conditioning or heating in it so you can only use it during the 
temperate parts of the year.
    So as we got further down the line, two things emerged. 
First, it turns out it had to be donor supported. It turns out 
that donors really weren't interested in something that was 
temporary, that might last 8 years or might last 10 years and 
would only be used for a very small part of the year. So it 
turned out to be a tougher nut to crack as we would say in 
terms of fundraising than we thought.
    Also, practically, it turned out to be more difficult. This 
was a unique structure in all the world, so as we brought more 
expertise against the problem, we began to realize that there 
were serious practical challenges, because it is not just a 
matter of blowing the structure up and taking it down because 
it is a very sophisticated structure, but all the 
infrastructure you put in it, all those chairs and seats and 
the IT had to be pulled out each time and then put back each 
time. So it turned out to have its practical challenges, as 
much as many of us thought it is an interesting intriguing idea 
and again one way to increase vitality on the mall.
    The museum's board was also initially supportive of it, but 
the board became more and more, if you will, split over the 
idea and eventually did not support the idea. It was 
unfortunate that we couldn't go forward. I liked the idea that 
at the Smithsonian, we are trying some new things and trying 
new ways to engage the public, and my feeling on that is, it is 
okay if some of them don't work out. I lived in California for 
quite a while and there was an spirit in California where you 
try something, if it doesn't work, don't repeat it again, but 
at least be willing to take a bit of a risk, and I thought this 
one was worth taking the risk. It just did not work out in its 
time.
    We are doing a master plan for the south campus now with a 
very creative firm, and they are taking some of the ideas that 
floated around what the bubble would be for and looking at how 
we can use the whole campus. So it comes back to the pan-
institutional approach again of how do we revitalize that whole 
area, not just the Hirshhorn, but the new Arts and Industry 
Building, which we will reopen next year, the Castle, the 
Freer, Sackler and the African Art Museum, how do we make all 
that work together for our visitors to enhance their 
experience.
    So we will use some of the ideas that came out of the 
fermentation for that project, but it just didn't work as a 
project itself. We did have some donor support for it. I 
mentioned it was a challenge to raise, but we did have some. 
The Bloomberg Foundation was a significant donor, and the 
Annenberg Foundation. We have strong relationships with those 
foundations. We had informed them that we were meeting 
challenges and resistance, and I personally visited with them 
myself and others of my staff did to have discussions with 
them. And in the end, it didn't work and we are returning the 
moneys to those foundations.
    The Chairman. Very well. Thank you, gentleman.
    The ranking member.
    Mr. Brady. Thank you, Madam Chairman. I just have one 
question.
    How does one go about getting an intern?
    Mr. Clough. The intern thing is close to my heart. I am an 
educator, and I believe that these experiences that we can 
offer young people are life-expanding experiences and that the 
Smithsonian is a remarkable opportunity for a young person to 
learn because we have history, art, culture and science. So we 
really give them a large breadth, and we are on the Nation's 
Mall for many of them. Now, not all of them are here. Some may 
work in Panama. Some may work out at the zoo. Many do work out 
at the zoo in our conservation biology program.
    But we have a program, and it is on our Web site for 
internships. So you just click on that, and it gives you a 
detailed process for application. We take interns any time of 
the year, but most of them come in the summer. We decided to 
stir our pot differently because in the old days, it was mainly 
local universities, and now we have expanded it, and we have a 
new head of our internship program, who is very creative. So we 
can give you advice if you would like to have any of the folks 
in Pennsylvania know about it.
    Mr. Brady. I know this is a public hearing, but I am still 
a little bold. Who do I call to get an intern? I will talk to 
you after the hearing.
    Mr. Clough. We will make sure you get that number.
    Mr. Brady. Because I pride myself with these young men and 
women and have a lot in my office. The problem with it, and my 
staff will tell you we have a lot here, is we run out of space, 
our space isn't that adequate. And I just think it is a great 
experience for them to be on the committee as an intern and in 
our own personal office as a intern, and it would be a great 
experience, and it is a good idea that you do it. And I am glad 
that they are close to your heart because they are to mine, 
too, that you can have an intern over at the Smithsonian. It 
must be a great experience for them. So I appreciate it, and I 
will talk to you.
    Mr. Clough. Thank you.
    The Chairman. Any other questions? The gentleman from 
California?
    I think you can see from all of our questions here what a 
high regard certainly this committee and Congress and the 
American People hold the Smithsonian in. As I said and keep 
saying, it is such a national treasure. I think the testimony 
was very good, and I think the question and answer period was a 
great way for you to tell more of your story in a very 
forthright way. So we appreciate your candidness this morning.
    I would also mention for the record that any members that 
would like to submit additional questions to the witnesses will 
have 5 legislative days in which to submit those questions as 
well. There may be some questions that we would ask you and ask 
you to respond to.
    With that, certainly on behalf of this committee, both 
sides of the aisle, I know that I speak for the ranking member 
as well, this committee looks forward to continuing to work 
with you and to do everything we can to ensure that this 
fantastic treasure does survive and improve for future 
generations. The largest room is always the room for 
improvement, no matter what business you are in, right?
    So thank you very much. We appreciate the witnesses today. 
This hearing is adjourned.
    [Whereupon, at 11:38 a.m., the committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
